                                 NATIONAL SCIENCE FOUNDATION
                                 OFFICE OF INSPECTOR GENERAL
                                   OFFICE OF INVESTIGATIONS

                            CLOSEOUT MEMORANDUM

Case Number: A01120045                                                        Page 1 of 2


    We received a n allegation that a n Assistant Director's' (AD'S) reconsideration
    decision for a proposal represented a serious impropriety. A proposal2 for creating a
    Center3 was received by NSF in May 1995. The Center was funded via a
    cooperative agreement beginning in 1996. The Center submitted a renewal
    proposal4 in its fifth year that was reviewed by a d hoc reviewers; following the a d
    hoe review, the Center received a (reverse) site visit. The ad hoe reviews were
    mixed, but the site visit panel unanimously recommended against further funding
    the Center. The Program Director (PD) recommended declination and the Division
    Director (DD) concurred. The cooperative agreement called for a 2-year phase-out,
    which the program began to implement..

    The Center's PI and his university President requested reconsideration claiming
    (a) NSF had held up their fifth year funds prior to the review, which negatively
    affected their performance, and (b) the PI did not get a n opportunity to respond to
    the reviewers' comments before a decision was made a s promised. NSF's
    reconsideration procedure5 requires the Assistant Director (AD) to determine
    whether NSF's merit review was fair and reasonable, both substantively and
    procedurally at the written request of the PI. The AD, who was relatively new to
    NSF, asked various senior administrators for advice, including asking a senior
    scientist from a different division6 to assist with fact-finding.

    The AD'S reconsideration decision was to release the fifth year funds t h a t had been
    held, extend the current award for 2 years, and allow the Center to submit another
    renewal proposal in one year. The AD told the Center to emphasize its research on
    specified core areas and to de-emphasize the activities that received the most
    negative comments from the reviewers.

    The complainant,7 a member of the community who became aware of t h e situation,
    objected that the AD overrode the unanimous decision of the site reviewers, the PD,
    and the DD. He thought the (AD'S) reconsideration decision was improper and any

       1 (footnote redacted).
         (footnote redacted).
       3 (footnote redacted).
       4 (footnote redacted).
       5 GPM, Chapter IX; PAM, Chapter VI, Section K 3 b.
       6 (footnote redacted).
       7 (footnote redacted).
                                                                                                 7
           -,@



   9
       A
       '                                  NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A01120045                                                          Page 2 of 2


       additional funding for the Center would be a further waste of tax payer money.

       We interviewed the AD about his reconsideration decision and requested documents
       he relied upon in making his decision. The AD said he relied heavily on the report
       given to him by the senior scientist. The senior scientist noted procedural and
       managerial concerns about the program's handling of the award and the review
       process for the renewal proposal. The senior scientist thought the PD's failure to
       release fifth year funds was, minimally, untimely, and, a t worst, may have impeded
       the Center's research; the AD agreed and concluded it had inhibited how well the
       Center was able to carry out its research in the period before the site review. The
       senior scientist pointed out several questionable management practices that
       occurred prior, during, and after the review. His comments on questionable
       managerial practices notwithstanding, the senior scientist concluded the
       declination decision was reasonable and correct. Although the AD thought no
       questionable management decision by itself was enough to overturn the decision, he
       thought that taken together, along with the positive value he believed the reviewers
       had recognized from Center's research, were significant enough to substantiate his
       decision to overturn the declination.

       While reasonable people may disagree with the AD'S decision, one can understand why
       he made it, a sentiment essentially echoed by the current PD.8 The AD must consider
       both procedural and substantive matters in a reconsideration, and he did. He placed
       more emphasis on the procedural and management problems than the substantive
       issues (i.e., the reviewers opinions) in reaching his conclusions. We conclude that the
       AD followed NSF's procedure for reconsideration, and, accordingly, this case is closed
       and no further action will be taken.




             8   (footnote redacted).
